<html>
<title> - VENEZUELA'S SANCTIONABLE ACTIVITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   VENEZUELA'S SANCTIONABLE ACTIVITY

=======================================================================


                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,

                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                                and the

                 SUBCOMMITTEE ON THE WESTERN HEMISPHERE

                                and the

                  SUBCOMMITTEE ON THE MIDDLE EAST AND
                               SOUTH ASIA

                                 of the

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2011

                               __________

                           Serial No. 112-71

              Committee on Oversight and Government Reform

                           Serial No. 112-79

                      Committee on Foreign Affairs

                               __________

   Printed for the use of the Committees on Oversight and Government 
                       Reform and Foreign Affairs


         Available via the World Wide Web: http://www.fdsys.gov

                      http://www.house.gov/reform

                  http://www.foreignaffairs.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
71-297                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas
      

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2011....................................     1
Statement of:
    Benjamin, Daniel, Ambassador-at-Large, Coordinator for 
      Counterterrorism, U.S. Department of State; Kevin Whitaker, 
      Acting Deputy Assistant Secretary for Western Hemisphere 
      Affairs, U.S. Department of State; Thomas Delare, Director 
      for Terrorism Finance and Economic Sanctions Policy, U.S. 
      Department of State; and Adam J. Szubin, Director, Office 
      of Foreign Assets Control, U.S. Department of the Treasury.    13
        Benjamin, Daniel.........................................    13
        Delare, Thomas...........................................    22
        Szubin, Adam J...........................................    24
        Whitaker, Kevin..........................................    24
Letters, statements, etc., submitted for the record by:
    Benjamin, Daniel, Ambassador-at-Large, Coordinator for 
      Counterterrorism, U.S. Department of State, prepared 
      statement of...............................................    16
    Mack, Hon. Connie, a Representative in Congress from the 
      State of Florida, prepared statement of....................     6
    Szubin, Adam J., Director, Office of Foreign Assets Control, 
      U.S. Department of the Treasury, prepared statement of.....    27


                   VENEZUELA'S SANCTIONABLE ACTIVITY

                              ----------                              


                         FRIDAY, JUNE 24, 2011

        House of Representatives, Subcommittee on National 
            Security, Homeland Defense and Foreign 
            Operations, Committee on Oversight and 
            Government Reform, joint with the Subcommittee 
            on the Western Hemisphere and the Subcommittee 
            on the Middle East and South Asia, Committee on 
            Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 9:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the Subcommittee on National Security, Homeland 
Defense, and Foreign Operations) presiding.
    Present: Representatives Chaffetz, Labrador, Platts, 
Tierney, Welch, Quigley, and Cummings.
    Present from Foreign Affairs Subcommittee on the Western 
Hemisphere: Representatives Mack, Schmidt, Rivera, Marino, 
Sires, and Faleomavaega.
    Present from Foreign Affairs Subcommittee on the Middle 
East and South Asia: Representatives Chabot, Mack, Marino, 
Ackerman, Connolly, and Deutch.
    Staff present: Thomas A. Alexander, senior counsel; Molly 
Boyl, parliamentarian; Kate Dunbar, staff assistant; Adam P. 
Fromm, director of Member services and committee operations; 
Linda Good, chief clerk; Mitchell S. Kominsky, counsel; Cecelia 
Thomas, minority counsel/deputy clerk; and Carlos Uriarte, 
minority counsel.
    Mr. Chaffetz. Good morning. The committee will come to 
order.
    Welcome to today's hearing: Venezuela's Sanctionable 
Activity. This is a joint hearing between the Oversight 
Committee's National Security, Homeland Defense and Foreign 
Operations Subcommittee, the Foreign Affairs Subcommittee on 
Western Hemisphere, and the Foreign Affairs Subcommittee on the 
Middle East and South Asia.
    We are joined today by the chairmen of those subcommittees, 
Chairman Connie Mack of Florida and Chairman Steve Chabot of 
Ohio.
    I would also like to welcome Ranking Member Tierney of 
Massachusetts, Ranking Member Ackerman of New York. Mr. Sires 
of New Jersey will be sitting in for the Ranking Member Engel 
today.
    Thank you all for being here.
    Today we are examining the administration's policies to 
conduct national security threats abroad through the use of 
sanctions. For the past decade, the United States has focused 
much of its attention on the Middle East. Since the 9/11 
attacks, Americans have invested over a trillion dollars 
fighting the wars in Iraq and Afghanistan. Since 2001, 6,072 
Americans have died in Operations Enduring Freedom, Iraqi 
Freedom, and New Dawn. Another 44,266 have been injured. In 
Afghanistan alone these numbers have risen dramatically since 
our current President took office in 2009.
    Wednesday evening, President Obama announced the intent to 
withdraw 33,000 troops from Afghanistan by the fall of 2012. 
This will leave approximately 67,000 troops behind, which is 
twice as many when President Obama entered office.
    While I support a withdrawal, it must be rooted in 
prudence, not politics; because it is the right thing to do 
based on the facts, and not because it is convenient.
    While we combat terrorism in the Middle East, we must not 
neglect threats that we face in our own hemisphere. In recent 
years, Venezuela has grown significantly closer to regimes that 
are openly hostile to the United States and its interests. 
Venezuela has been a willing partner to countries such as Iran, 
Syria, North Korea, and Cuba.
    With the exception of North Korea, each of these countries 
has been designated as a state sponsor of terrorism by the U.S. 
Government. Senior officials within the Venezuelan government 
have also provided material support to Hezbollah, a terrorist 
organization. They have also maintained ties with the 
Revolutionary Armed Forces of Colombia, FARC; ELN; and ETA.
    President Hugo Chavez has accused the United States of 
being ``the first state sponsor of terrorism.'' President 
Chavez has also called sanctions against Iran illegitimate and 
that the Venezuelan government will ``back Iran under any 
circumstances and without conditions.''
    There is little question that Venezuela's behavior is 
sanctionable. The question before us today is how the U.S. 
Government should respond to these activities in the future. 
What options are available? Should we continue to impose anemic 
sanctions that are merely cosmetic or should we impose 
sanctions that truly impact Venezuela's ability to threaten the 
United States of America?
    Before we begin that analysis, I want to express my deep 
frustration with the administration. Time and again this 
administration has frustrated the work of this subcommittee by 
refusing to provide witnesses it has requested. Instead, it 
insults this body by sending only witnesses it believes are 
``appropriate.'' It does so without any regard to the judgment 
and prerogative, of elected representatives.
    This Congress, and especially the Oversight and Government 
Reform Committee, has a constitutional obligation to oversee 
the management, efficiency, and operations of the executive 
branch. This duty is without question and without exception. At 
the same time, this administration has a responsibility to 
provide information the American people seek through their 
representatives. This critical check and balance is designed to 
ensure that the Federal Government does not overstep its 
boundaries and adheres to the will of the people.
    When the executive branch does not respond appropriately to 
congressional inquiries, it breaches the duty of the American 
people. This is the third time that Congress has attempted to 
hold this hearing. On the first two occasions, the 
administration either refused to provide any witnesses or 
claimed it had too little time to prepare. It is unacceptable 
that the administration requires more than 2 weeks to formulate 
a thought about a matter it studies and briefs to executive 
branch leaders and policymakers on a regular basis.
    It is equally unacceptable that the administration did not 
submit written testimony for today's hearing until late 
yesterday. The administration had over 3 weeks to prepare 
testimony for this hearing and have known about this topic for 
nearly 3 months. It is unacceptable that the administration was 
unable to adhere to our simple 48-hour deadline by submitting 
testimony at the last possible minute. Perhaps this committee 
should investigate the management and efficiency of the 
executive branch in this regard.
    I look forward to hearing from our panel of witnesses about 
the success and challenges they face. This subcommittee is 
ready to work with the Departments in any way possible. We do 
appreciate your being here today, but understand the 
frustration of this committee in not being able to do its work 
because you are unable to do your work in giving us the 
documents that we deserve and need to have so we can do our 
job.
    I would now like to recognize the distinguished ranking 
member for the National Security Subcommittee, the gentleman 
from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you very much, Mr. Chairman. I thank the 
witnesses for being here today as well.
    We all are familiar with the 2010 comprehensive Iran 
sanctions, the Accountability and Disinvestment Act of 2010, 
and we also understand the Secretary has made a finding that 
gasoline sales have been made in contravention of that law. So 
the question really does come down, as the chairman said, to 
what are we going to do and what should we do.
    I think that we have to have a real clear understanding of 
the current sanctions regime, which I hope you gentlemen will 
be able to share with us today; a full appreciation of how much 
we have discussed these diplomatic priorities for that region; 
what are our goals; how is it exactly that we think we are 
going to be able to accomplish them; and what will the current 
sanctions do to drive us toward those goals and what would any 
additional sanctions do toward moving in that direction and how 
should they be structured. And we have to understand the impact 
of any ramping up of sanctions before we start moving in that 
direction.
    So I think it is a good time for that conversation. I think 
that, hopefully, between the four of you, you will be able to 
give us all that information in a form that can benefit us as 
we move forward.
    With that, Mr. Chairman, I just ask unanimous consent that 
my formal remarks be placed in the record.
    Mr. Chaffetz. Without objection, so ordered.
    I now recognize the chairman of the Foreign Affairs 
Subcommittee on Western Hemisphere, the gentleman from Florida, 
Mr. Mack, for his opening statement.
    Mr. Mack. Thank you, Mr. Chairman. I want to associate 
myself with your opening statement and also the statement of 
the ranking member.
    Before I begin my formal opening statement, I just want to 
say that the frustration runs deep, and I know you guys know 
this. We first asked for you to come in front of the 
Subcommittee on the Western Hemisphere and you refused. You put 
up roadblock after roadblock and just flat out refusal, and I 
hope this serves as a warning that next time we ask you to come 
in front of the subcommittee, you will come, because either you 
will come there, you are going to come here, and if we have to 
use our subpoena power, we will do it. So let's not go through 
this circus another time, okay?
    Today, in light of the U.S. State Department's recent 
actions in sanctioning PDVSA, the purpose of this hearing is to 
review and better understand the role of the State Department 
and Treasury Department in utilizing sanctions as an instrument 
of U.S. foreign policy. Specifically, I would like to 
concentrate on the sanctions available under U.S. law and 
discuss their potential application in cases where Venezuelan 
individuals, businesses, and the government are able to be 
sanctioned.
    Venezuela has become the Wild West under thugocrat Hugo 
Chavez. This is true for the following reasons: first, there is 
rampant drug trafficking and corruption; second, terrorist 
organizations like Hezbollah and the FARC are officially linked 
to government officials; and, third, Venezuela is supporting 
Iran and Iran's desire for a nuclear weapon.
    Under Hugo Chavez, Venezuela has become a hub in our region 
for money laundering and transshipment of illicit goods. In 
recent years, the relationship between drug trafficking and 
terrorist organizations has become closely intertwined.
    If you will notice up on the screen we have the definition 
from the State Department of what a state sponsor of terrorism 
is, and I will let you read that on your own.
    It is widely acknowledged that terrorist groups have turned 
to drug trafficking as a source of revenue.
    And if we can put up the other slide. This slide 
represents, in 2003, the drug trafficking flight patterns in 
Latin America.
    Then if you will go to the next slide. This is what it 
looks like in 2007. Unfortunately, we can't show the slides 
from today because those are still protected and classified. 
But the difference between 2003 and this map is in 2005 Hugo 
Chavez kicked out our DEA.
    As Chavez has provided Venezuela as a safe haven for these 
narcoterrorists, the FARC, a drug trafficking and terrorist 
organization who largely operates in remote sections of 
Colombia, have long received assistance, relief, and material 
support from Venezuelan authorities. And I think this is pretty 
well documented. When Colombia took out Reyes and they took the 
computers, Interpol was able to review those hard drives and 
found significant cooperation with officials from Venezuela, 
the Venezuelan government and the FARC. So clearly, if we go 
back to the definition of state sponsor of terrorism, you can 
check that box off, that there is a close tie and relationship 
between terrorist organizations and the government in 
Venezuela.
    I also want to talk a little bit more about the drug 
trafficking. Recently, the arrest of a drug kingpin by the 
United States, Makled, was arrested. Makled was then extradited 
to Colombia. Makled has said over and over again, and also 
talked about payments to government officials in Venezuela. So 
the drug trafficking organizations know that they have a friend 
in Hugo Chavez.
    We also, as I talked about, know that there is a 
relationship between the FARC and Hezbollah, and the Treasury 
has sanctioned members of the Venezuelan government for their 
relationship in Venezuela.
    Last, I want to talk about Venezuela and Iran. After many 
discussions and not until a hearing when I was able to supply 
the State Department with specific evidence of the shipment and 
sale of gasoline, we finally sanctioned Venezuela. 
Unfortunately, those sanctions have no teeth. The things that 
you sanctioned we currently aren't engaged in with Venezuela in 
the first place. So on one hand I am thankful that we actually 
did put sanctions on Venezuela, it is a good start, but this is 
a guy who supports terrorist organizations, drug kingpins, 
narcotrafficking, and Iran.
    Hugo Chavez should be, and deserves, labeled a state 
sponsor of terror, and our Government, the gentlemen in front 
of us, need to explain to us why he is not on the state sponsor 
of terrorism.
    With that, I yield back.
    [The prepared statement of Hon. Connie Mack follows:]
    [GRAPHIC] [TIFF OMITTED] 71297.001
    
    [GRAPHIC] [TIFF OMITTED] 71297.002
    
    Mr. Chaffetz. Thank you.
    The Chair will now recognize the gentleman from New Jersey, 
Mr. Sires.
    Mr. Sires. Thank you, Chairman Chaffetz, for holding this 
hearing, and thank you to our witnesses for being here today.
    Since leaping to power in 1998, Chavez has cast his 
revolution as that of the poor majority against the wealthy 
oligarch. He continues to impose an authoritarian populist 
political model in Venezuela, undermining democratic 
institutions and stifling the freedoms of the Venezuelan 
people. However, the president's once stellar approval ratings 
have stumbled, and in the most recent legislative election his 
body's majority shrank below a key threshold, setting the stage 
for heightened tension with a freshly emboldened opposition. 
The results of this election show the Venezuelan people 
desperately want change and that Chavez is losing his grip.
    As anti-Chavez sentiment continues to grow in Venezuela, 
Chavez has further intensified restriction on freedom of speech 
and press. The government has systematically undermined 
journalists' freedom of expression, workers' freedom of 
association, and the ability of human rights groups to promote 
human rights, completely disenchanting all civic engagement 
within the country.
    Officials harassment and intimidation of the political 
opposition has grown, including the persecution of elected 
state and local government officials and media outlets, such as 
Global Vision and RCTV International, that have been critical 
of the government.
    Internationally, Chavez continues to cultivate 
relationships with countries that are state sponsors of 
terrorism like Cuba, Iran, and Syria. I cannot emphasize enough 
how troubling the relationship between Venezuela and Iran is.
    With weekly flights that connect Iran and Syria with 
Caracas, collaboration between these two countries has hit a 
new height. I have often discussed before the Western 
Hemisphere Subcommittee my concerns about these flights, and I 
hope that representatives from the State Department can 
elaborate on this topic, as well as acknowledge the threat this 
poses both to the United States and the free nations.
    I commend the State Department for its most recent 
sanctions on two companies in Venezuela who have been connected 
to Iran's proliferation activities. Thus far, our strategy has 
been thoughtful and pragmatically. Hastily attacking Chavez 
could prove to have a detrimental effect on progress that has 
been already made and further embolden his populist agenda. We 
must continue to make smart decisions in regards to U.S. policy 
toward Venezuela to further disable Chavez's control and to 
encourage citizens to support democratic institutions and 
principles.
    Recently, Chavez's influence seems to have peaked. But we 
must remain vigilant, for he is likely to support like-minded 
political allies and movements in neighboring countries that 
seek to undermine moderate governments. He continues to oppose 
nearly every U.S. policy initiative in the region, including 
the expansion of free trade, counterdrugs, and counterterrorism 
cooperation in the regional security initiatives.
    Venezuela continues to extend a lifeline to Colombian 
narcotrafficking organizations by providing significant support 
and safe haven along the border, and it remains one of the most 
preferred trafficking routes for the transit of cocaine out of 
South America. U.S. sanctions have successfully targeted and 
applied financial measures against narcotic traffickers and 
their organizations in Venezuela, helping to ensure regional 
security. Venezuela has proven that it cannot be trusted and 
the United States should take the necessary measures to stifle 
its powers and ensure regional security, but we must do so in a 
tactful manner, as not to further empower Chavez. The national 
security threats posed by Venezuela are complex. We must 
implement the appropriate measures to protect the people of 
Venezuela and promote U.S. interests.
    I would like to, again, thank our witnesses and look 
forward to their testimony.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    We will now recognize the chairman of the Foreign Affairs 
Subcommittee on the Middle East and South Asia, the gentleman 
from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I want to thank my two 
fellow chairmen for putting together this important hearing. I 
know Chairman Mack and the Western Hemisphere staff have been 
trying to hold this hearing for some time and have met with 
considerable resistance from the administration, and I commend 
my colleague for his persistence.
    As chairman of the Middle East and South Asia Subcommittee, 
I and the other folks on the committee frequently confront the 
threats posed by Iran and global terrorist networks more 
globally, especially, of course, in the Middle East. The 
possibility, however, of an Iranian-Venezuelan alliance is 
particularly concerning.
    When not oppressing its own people, the tyrannical regime 
in Tehran devotes a great deal of its energy to threatening 
American national security, as well as the security of our 
allies in the region. The threat posed by Iran takes on a new 
and more ominous geostrategic significance when coupled with 
the potential of an Iran base of operations in our own 
hemisphere. This prospect harkens back to the days of the cold 
war, when all of a sudden we were no longer separated from our 
enemies by oceans, but faced threats in our own backyards.
    Although the nature of the threat may have changed, such a 
situation is just as unacceptable today as it was decades ago. 
I hope that the witnesses today can shed light on the nature of 
this threat. More importantly, however, I hope they can outline 
a clear and cogent policy to address it.
    One of the most fundamental roles of government is to 
provide for the security of its citizens. We are having enough 
trouble combating Iranian meddling and dismantling terrorist 
safe havens on the other side of the globe. The last thing we 
need is for threats from bad actors even closer to the American 
homeland.
    Again, I want to thank my fellow chairmen and also the 
ranking members for holding this hearing today, and I yield 
back the balance of my time.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and I thank the 
panelists for being here today. I listened with great interest 
to my friend from Florida berate you for not being here 
previously. I serve on both the Oversight Government Reform 
Committee and the Foreign Affairs Committee, and I must say I 
have not particularly been struck with the reluctance of the 
administration to acquiesce to hearing appearance requests, but 
perhaps in the subcommittee there was a problem I don't know. 
In any event, we are glad you are here.
    Each sovereign nation has the right to develop alliances 
beneficial to its national interests, but not at the expense of 
its neighbors. That is the point we have reached with 
Venezuela's relationship with Iran. As a result, the Obama 
administration, for example, recently sanctioned Venezuela's 
state-owned oil company, PDVSA, for its business with Iran, 
several illegal activities in Latin America connected to the 
government of Iran. Example, Iran-backed Hezbollah has actually 
undertaken illicit activities in the tri-border area of 
Argentina, Brazil, and Paraguay.
    The terrorist group has profited from film piracy and drug 
trafficking in that area. The group is also suspected in two 
bombings in Buenos Aires that killed a total of 115 people, the 
1992 bombing of the Israeli embassy, and the 1994 bombing of 
the Argentine-Israeli Mutual Association. Eight of the nine 
original arrest warrants issued for that bombing were for 
Iranian government officials.
    Though Iran and Venezuela have been linked since the 
founding of OPEC in 1960, the two countries recently 
strengthened that relationship. It is especially troubling 
because of potentially harmful activity undertaken under the 
guise of diplomatic relationships. One example is the absence 
of customs enforcement, for example. On weekly flights from 
Caracas to Tehran via the Venezuelan airline Conviasa, it is 
unclear who or what is being transported, but reports indicated 
that the flights do carry weapons for terrorists.
    These developments are troubling enough. They are further 
complicated by Iran's audacity in the nuclear area, 
specifically its missile tests and air swell secret enrichment 
facilities in Kohm. The nuclear issue is pressing and does not 
exist in a vacuum. In 2009, Venezuelan President Hugo Chavez 
expressed his support for Iran's nuclear energy development and 
there have been mixed reports signaling a possible Iranian 
assistance to Venezuela in its search for uranium deposits.
    The Iran-Venezuela relationship is even more troubling 
because Venezuela serves as a diplomatic conduit for Iran, 
playing an important part in cultivating a relationship between 
Iran and the Latin American countries of Bolivia, Ecuador, and 
Nicaragua. Venezuela's involvement with Iran is a cause for 
concern and illegal activities in both hemispheres that have 
been directly linked to the Iranian government, and I welcome 
today's hearing to explore that further and to look at U.S. 
diplomatic options with regard to this troubling and growing 
relationship.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentlewoman from Ohio, Mrs. 
Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman, for holding this 
very important hearing. I don't think it should be any surprise 
to anyone that there is a special link between Venezuela and 
Iran, and perhaps it should be no surprise that Hugo Chavez is 
aggressively working to strengthen his countries ties with 
Iran.
    If you look at just what has occurred in the last 7 years, 
I think the facts speak for themselves. In 2006, Venezuela 
integrated itself with Iran by aligning with Cuba and Syria as 
the only countries to vote against the U.N. Atomic Energy 
Agency resolution reporting Iran to the Security Council for 
its failures to comply with U.N. sanctions to terminate its 
nuclear program.
    In April 2008, Iran and Venezuela signed a pact of mutual 
military support. In April 2009, the two countries inked an 
agreement that would create a development bank whereby each 
country would invest $100 million for bilateral economic 
development projects. In October 2010, the two countries signed 
11 mutual cooperation agreements on such issues as trade, 
energy, shipping, finance, and public housing.
    According to an article published in the German newspaper 
Die Welt, in November 2010 one of the agreements signed between 
Iran and Venezuela in October 2010 would establish a military 
base on Venezuelan soil to be jointly operated by both 
countries on which medium-ranged missiles would be placed. On 
May 13, 2011, Die Welt further reported that Chavez met with 
the commander of the Iranian Revolutionary Guard's Air Force in 
February 2011 to discuss the final details of the construction 
of the missile base, which now is being built only 75 miles 
from the Venezuelan-Colombian border.
    It is also believed that Iran is pursuing the exploration 
of uranium in Venezuela, an obvious ingredient necessary for 
Iran's continued development of nuclear weapons.
    Last year, RIA Novosti, the Russian international news 
agency, reported that Russia, which signed a deal with Iran in 
2007 to sell its five battalions of sophisticated air defense 
systems, would abrogate the agreement due to the new U.N. 
sanctions that now had been imposed against Iran. It is 
believed that Russia may now sell the air defense systems to 
Venezuela--how convenient--who in turn could sell them to Iran.
    Just recently, on May 24, 2011, the United States imposed 
sanctions on Venezuela's state-owned oil company, the PDVSA, 
for assisting Iran in its production of gasoline and petroleum 
production. Specifically, the PDVSA was sanctioned for selling 
$50 million worth of petroleum products to Iran between 
December 2010 and March 2011, in violation of the 1996 
Sanctions Act. According to the State Department's Web site, 
the sanctions we have imposed on PDVSA prohibit the company 
from competing for U.S. Government procurement contracts, from 
securing finance from Export-Import Bank of the United States, 
and from obtaining U.S. import licenses.
    Mr. Chairman, I applaud the Department of State for its 
decision to impose these sanctions. Unfortunately, it is not 
enough. We need to do more. Every Venezuelan company doing 
business with Iran should be investigated and a determination 
should be made as to whether it is in violation of the 1996 
Sanctions Act. In those instances where Venezuelan companies 
are in violation of the act, sanctions should be imposed 
immediately.
    We need to show Chavez that we are serious and that there 
will be penalties to pay for assisting and accommodating the 
terrorist Iranian regime of Mohammed Ahmadinejad.
    Thank you and I yield back my time.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentleman from American Samoa, 
Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do want to 
commend both you gentlemen for calling this joint committee 
hearing this morning.
    I have listened with interest in terms of this issue of 
providing sanctions to those countries that violate our laws, 
as well as international laws. I think we have gotten to the 
point that we have become sanctionitis. Just about everything 
we do we put sanctions, we put sanctions, and I have my own 
serious questions about the consistency of how we apply our 
foreign policies when we apply sanctions against countries.
    I am not suggesting that we don't put sanctions on 
Venezuela, but there seems to be a whole bunch of 
contradictions here. We put sanctions and yet I believe 
Venezuela is one of our biggest suppliers of oil coming to our 
country, and I am very curious from our witnesses if you can 
give us more information on the subsidiary of Citgo, I believe, 
that currently is one of the biggest distributors of oil in our 
country. It seems to me that every time we put sanctions, but 
as long as there are holes in between, allowing these countries 
to obtain whatever their needs are, the sanctions become 
somewhat useless.
    But I am very, very curious and want to hear from our 
witnesses this morning in terms of how our whole fabric of 
applying sanctions have really been effective or have they just 
been another sanction and another thing.
    A classic contradiction, as you know, Mr. Chairman, as I 
indicated, when sometime goes wrong, we put sanctions against 
Thailand, against Fiji, all these, and yet, at the same time, 
we waive sanctions when Musharraf, by a military coup, took 
over Pakistan for some 10 years, despite the promises that he 
made that we were supposed to have a democracy in that country, 
and that never happened.
    But I am looking forward to hearing from our witnesses in 
terms of where exactly Venezuela comes in as far as the whole 
host of sanctions that we put against this country.
    I will say, interestingly enough, the close ties of 
Venezuela and Iran has because of the nuclear issue, I believe 
that what happened in Japan recently has caused Mr. Chavez to 
have second thoughts about establishing a nuclear relationship 
with Iran. But I do look forward to hearing from our witnesses.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    Do any other Members wish to make an opening statement?
    [No response.]
    Mr. Chaffetz. Members may have 7 days to submit opening 
statements for the record.
    We will now recognize our panel. The Honorable Daniel 
Benjamin is the Coordinator for Counterterrorism at the State 
Department; Mr. Thomas Delare is the Director for Terrorism 
Finance and Economic Sanctions Policy at the State Department; 
Mr. Kevin Whitaker is the Acting Deputy Assistant Secretary for 
Western Hemisphere Affairs at the State Department; and Mr. 
Adam Szubin is the Director of the Office of Foreign Assets 
Control at the Treasury Department.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Chaffetz. Let the record reflect that all witnesses 
answered in the affirmative. Thank you. You may be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made as part of the record.
    We will now go ahead and recognize Mr. Benjamin.

STATEMENTS OF DANIEL BENJAMIN, AMBASSADOR-AT-LARGE, COORDINATOR 
FOR COUNTERTERRORISM, U.S. DEPARTMENT OF STATE; KEVIN WHITAKER, 
   ACTING DEPUTY ASSISTANT SECRETARY FOR WESTERN HEMISPHERE 
AFFAIRS, U.S. DEPARTMENT OF STATE; THOMAS DELARE, DIRECTOR FOR 
     TERRORISM FINANCE AND ECONOMIC SANCTIONS POLICY, U.S. 
 DEPARTMENT OF STATE; AND ADAM J. SZUBIN, DIRECTOR, OFFICE OF 
    FOREIGN ASSETS CONTROL, U.S. DEPARTMENT OF THE TREASURY

                  STATEMENT OF DANIEL BENJAMIN

    Mr. Benjamin. Thank you very much, sir. Distinguished 
members of the committees, thank you for the opportunity to 
appear before you today to discuss Venezuela's sanctionable 
activities. I am pleased to be here today with my Treasury 
colleague, Adam Szubin, and State Department colleagues Tom 
Delare and Kevin Whitaker.
    Mr. Chairman, let me be clear from the outset. With respect 
to global efforts to counterterrorism, developments in 
Venezuela over the last decade have been deeply troubling. 
Instead of meeting his international obligations since coming 
to power in 1999, Hugo Chavez has chosen to develop close 
relations with Iran and Syria, both state sponsors of 
terrorism. Senior members of his government are directly 
implicated in providing support to U.S. designated foreign 
terrorist organizations, particularly the FARC and the ELN.
    The administration has significant concerns about 
connections between members of the Venezuelan government and 
ETA as well. All of these issues have been reported on in the 
press, and as we have reported in the past, Hezbollah has a 
presence in Venezuela, and the Department of Treasury has done 
much to reveal these connections.
    I do, however, want to emphasize that the information 
available to us indicates that Hezbollah activity in Venezuela 
is limited to fundraising. We remain alert to indications of 
other activities, particularly operational activity, but to 
date there is no information to support any such connection.
    Venezuela must fulfill its obligations under U.N. Security 
Council Resolutions 1373 and 1540, which forms part of the 
legal basis of international counterterrorism efforts. These 
resolutions, adopted under Chapter VII of the U.N. Charter, 
require all states, including Venezuela, to take a series of 
measures to combat terrorism and prevent weapons of mass 
destruction and their means of delivery from getting into the 
hands of terrorists. It is our view that Venezuela has not done 
enough in this regard.
    The Obama administration is pursuing a policy to press 
Venezuela to change its behavior. Our approach is about 
effectiveness. We are ratcheting up the pressure in a way that 
our analysis suggests will be most effective. We are increasing 
the cost on the Chavez government for its actions, including by 
publicly exposing our conclusions about that government's 
activities. We are carefully avoiding falling into the trap of 
providing Chavez with an opening to increase his demagoguery 
and exploit nationalist sentiment by falsely attempting to turn 
this into a bilateral issue with the United States rather than 
what it is, Venezuela's failure to live up to its international 
obligations with respect to counterterrorism. We believe this 
approach, combined with regional efforts to moderate 
Venezuela's behavior, is slowly but surely bringing positive 
change.
    Imaginative and effective Colombian diplomacy has taken 
advantage of this environment. Since President Santos took 
office a year ago, we have seen a marginal but significant 
improvement by Venezuela. Venezuela has arrested and deported 
to Colombia seven senior members of the FARC and ELN, including 
members of the FARC headquarters section and the FARC's key 
European fundraiser. Most recently, Venezuela arrested a member 
of the FARC, General of Command Jose Conrado, based on a 
Colombian arrest warrant.
    The Venezuelan and Colombian ministers of defense have 
developed a channeled communication to discuss border security. 
Chavez has also publicly moved away from the FARC by calling 
for that organization to join a political reconciliation 
process and by disavowing as unauthorized any discussions 
between Venezuelan government officials and the FARC about 
establishing bases in Venezuela.
    Our actions have been targeted, well justified, and well 
understood in Venezuela. For the last 5 years, pursuant to 
Section 40(a) of the Arms Export and Control Act, Venezuela has 
been listed as a not fully cooperating with the United States' 
antiterrorist and efforts country. Because of its inadequate 
response to our counterterrorism efforts, the effect of this 
listing is a prohibition against the sale or licensing for 
exports to Venezuela, defense articles, or services. This 
sanction is a useful tool in itself and for signaling that we 
are not satisfied with Venezuela's counterterrorism 
cooperation, and it is used when a state may not meet the high 
threshold for designation as a state sponsor of terrorism.
    We have also employed an array of targeted sanctions 
against elements of Chavez's government. My colleagues from the 
Department of the Treasury and our Economic and Energy Affairs 
Bureau will explain the work we have done to target elements of 
the Venezuelan government via the Drug Kingpin Act, via 
Executive Order 13224, and the Comprehensive Iran Sanctions 
Accountability and Divestment Act of 2010.
    Much more work remains to be done and we will continue to 
closely monitor Venezuela's actions. We you know, secretaries 
of state have used the state sponsor of terrorism action 
sparingly since its creation in 1979. In fact, it has been more 
than 18 years since this power has been invoked. But this does 
not mean that we are unwilling to use this authority. All 
options are on the table, including designating Venezuela as a 
state sponsor if the circumstances warrant.
    We look forward to working with Congress and with our 
partners in the region to further encourage Venezuela to behave 
as a responsible international actor. Thank you very much.
    [The prepared statement of Mr. Benjamin follows:]
    [GRAPHIC] [TIFF OMITTED] 71297.003
    
    [GRAPHIC] [TIFF OMITTED] 71297.004
    
    [GRAPHIC] [TIFF OMITTED] 71297.005
    
    [GRAPHIC] [TIFF OMITTED] 71297.006
    
    [GRAPHIC] [TIFF OMITTED] 71297.007
    
    [GRAPHIC] [TIFF OMITTED] 71297.008
    
    Mr. Chaffetz. Thank you. It is my understanding that given 
that there are three witnesses from the State Department, that 
there was going to be just one single statement, or are we 
doing individual statements as well? Did I have that right, 
there is just the one statement?
    Mr. Benjamin. No, my colleagues also have brief statements.
    Mr. Chaffetz. Oh, yes.
    Mr. Delare.

                   STATEMENT OF THOMAS DELARE

    Mr. Delare. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear here today with my colleagues.
    In the Bureau of Economic, Energy and Business Affairs at 
the State Department, we have responsibility for the 
implementation of sanctions targeting Iran's energy sector. 
Naturally, we also have very serious concerns about Venezuela's 
relationship with Iran in this area.
    Venezuela is Iran's closest political ally in the western 
hemisphere, as we have heard this morning. President Chavez 
continues to define Iran as a strategic ally. The highly 
publicized bond between Mr. Ahmadinejad and Chavez has led to 
declarations about broad economic, military, and political 
cooperation, although the extent of actual cooperation is not 
clear.
    Under the Comprehensive Iran Sanctions and Divestment Act 
[CISADA], the State Department is the agency primarily 
responsible for implementing the provisions which relate to the 
energy, shipping, transportation sectors, and sensitive 
telecommunications technology non-proliferation and human 
rights issues. The Department of Treasury has primary 
responsibility for implementing the financial sanctions 
contained in CISADA. I know my colleague, Adam Szubin, will 
discuss Treasury's role in detail. Let me just add that not 
only at State do we work extensively and collaboratively with 
Treasury; we do the same with many other agencies in the 
Government.
    On May 24th the Secretary of State imposed sanctions on 
Petroleos di Venezuela [PDVSA], along with six other companies 
for their activities in support of Iran's energy sector. We 
sanctioned PDVSA because on at least two occasions the company 
provided cargoes of reformate, an additive used in gasoline, to 
the National Iranian Oil Co. These shipments were valued at 
over $50 million, well above sanctionable thresholds 
established in ISA.
    Under the Iran Sanctions Act [ISA], the Secretary has the 
authority to calibrate sanctions on a case-by-case basis, 
something that many of you have alluded to this morning. 
Sanctions can range from prohibitions on certain types of U.S. 
Government assistance to a complete blocking of all property 
transactions subject to U.S. jurisdiction.
    In the case of PDVSA, the Secretary chose three sanctions 
that limit PDVSA's activities in the United States, but do not 
impact their subsidiaries or the export of crude oil from 
Venezuela. It is important to note that this calibrated 
approach was chosen because it is our goal to persuade PDVSA to 
make the right choice and stop shipments of refined petroleum 
to Iran. If PDVSA does not stop, and we have seen no evidence 
of any further actions since the imposition of these sanctions, 
we have made it very clear in our conversations with them that 
we reserve the right to impose additional and more severe 
sanctions.
    In the case of PDVSA, we do not know what the ultimate 
result of these important actions will be. We are confident, 
however, that we have their attention based on comments from 
PDVSA and Venezuelan government officials.
    The Department of State has a very good record of 
convincing companies to stop supporting Iran's energy sector. 
Last fall we secured the formal withdrawal from Iran of five 
large multinational energy companies: Royal Dutch Shell, ME, 
Impacts, Statoil, and Total. They have all removed themselves 
from projects in Iran. These firms have since been joined by 
scores of other companies, both in the energy sector and in 
other sectors, who have simply recognized that the risks of 
doing business with Iran are just too high.
    We will continue our dialog with Venezuela about this 
subject and we will continue a very vigorous outreach process 
that we have engaged in to talk to the business community 
worldwide about the risks of doing business with Iran.
    I should note that also on May 23rd the State Department 
imposed sanctions pursuant to the Iran, North Korea, and Syria 
Nonproliferation Act [INKSNA]. This was against the Venezuelan 
Military Industries Co. [CAVIM]. INKSNA provides for penalties 
on entities that engage in the transfer to or acquisition from 
Iran, Syria, or North Korea of equipment or technology 
controlled by one of the four multilateral regimes, that is, 
the Australia Group, the Missile Technology Control Regime, the 
Nuclear Suppliers Group, and the Vasinar Convention. These 
agreements regulate the export of advanced conventional 
weapons, weapons of mass destruction, and cruise and ballistic 
missile technologies.
    Let me conclude by stressing that we pay constant attention 
to the activities of Venezuela with regard to Iran. We work 
with all the relevant agencies of the U.S. Government to 
utilize the tools that the Congress has given us, and I can 
assure you we will react to concrete examples of sanctionable 
behavior as we see them.
    So at the conclusion of statements I would be happy to 
address any questions you might have. Thank you very much.
    Mr. Chaffetz. Thank you.
    I want to go back to this point, though, for a moment here. 
The three representatives from the State Department issued one 
statement. Congress asked that you submit these statements 48 
hours in advance. You couldn't do that. And now you each have 
three statements. We are going to hear from you. We want to 
hear from you; that is why you are here. Why couldn't you 
submit your statements in accordance with our rules? What was 
the hindrance?
    Mr. Benjamin. Mr. Chairman, I apologize for the lateness of 
the submission. As you can see from those who are present here, 
this is an issue that takes very intricate and complex 
coordination both within the Department and across agencies. 
There was a great deal of work that needed to be done in 
preparation for this hearing; we wanted to have the best 
information available. We will certainly do our best to make 
sure that we meet your deadlines in the future.
    Mr. Chaffetz. I would appreciate that. It is unacceptable 
to do this. You obviously prepared some opening remarks, yet 
you failed to submit them to this body, and we find that 
unacceptable.
    Mr. Whitaker, you are recognized for 5 minutes.

                  STATEMENT OF KEVIN WHITAKER

    Mr. Whitaker. Thank you. Chairman, ranking members, 
distinguished Members, thank you for the opportunity to appear 
here today. Let me make just two points.
    First, the Department shares your concerns about 
Venezuela's relationship with Iran, its support for the FARC, 
its failure to cooperate on counterterrorism, and its 
demonstrable failure to meet its international counternarcotics 
obligations. We have taken a series of steps over time, using 
tools provided by Congress, to address these failures. We are 
constantly reviewing all the information pertaining to these 
matters to determine if the substantial targeted and 
interactive steps we have taken are appropriate and sufficient 
in light of the information available to us. Taken 
collectively, these steps demonstrate our commitment to act 
responsibly and consistently with legislation and policy to 
confront specific activities by Venezuela and Venezuelan 
persons.
    Second, let me draw your attention to Colombia's superb 
diplomacy with Venezuela. The resulting rapprochement between 
these two nations has resulted in useful and, in context, 
unusually productive and effective counterterrorism 
cooperation. Bilateral cooperation on terrorism and security 
matters is increasing and being systematized, yielding notable 
results, including the deportation to Colombia of seven senior 
members of the FARC and the ELN. While we still have serious 
concerns about Venezuela's overall cooperation on 
counterterrorism matters, these are steps in the right 
direction and demonstrate that counterterrorism efforts work 
best when nations collaborate.
    What we seek from Venezuela is its collaboration in 
confronting narcotics trafficking and terrorism. In the absence 
of such cooperation, and when possessing evidence that 
Venezuela or Venezuelan entities are not meeting their 
international obligations or failing to comply with applicable 
U.S. laws, we have demonstrated our willingness to act. The 
Department has strongly urged Venezuela's leaders to pursue a 
path of cooperation and responsibility, rather than further 
isolation, and will continue to do so.
    We continue to monitor Venezuela, as well as other 
countries, for activities that indicate a pattern of support 
for acts of international terrorism. No option is ever off the 
table and the Department will continue to assess what 
additional actions may be warranted in the future.
    I am happy to be here and I look forward to your questions.
    Mr. Chaffetz. Thank you.
    We will now recognize Mr. Szubin for 5 minutes.

                  STATEMENT OF ADAM J. SZUBIN

    Mr. Szubin. Thank you, Mr. Chairman. Chairman Chaffetz, 
Chairman Mack, Chairman Chabot, Ranking Member Tierney, 
Congressman Sires, and distinguished Members, thank you very 
much for the opportunity to appear before you today to discuss 
Venezuela's sanctionable activities. I am pleased to be 
testifying alongside my colleagues from the State Department.
    We at Treasury have been intently focused on dangerous 
activities stemming from Venezuela over the last few years. 
During this period, we have uncovered and acted against a range 
of illicit actors operating out of Venezuela, including 
terrorists, narcotics traffickers, and those who have 
facilitated Iran's pursuit of weapons of mass destruction.
    Our concern regarding the activities of terrorist groups in 
Venezuela is longstanding, particularly Venezuelan links to the 
Iranian-sponsored Hezbollah. As but one example, I would draw 
the committees' attention to an action we took in 2008 
targeting a Hezbollah facilitator and Venezuelan diplomat, 
Ghazi Nasr al Din. Nasr al Din was a Venezuelan diplomat who 
served as their Charge d'Affaires in Damascus, Syria, and 
utilized his position in the Venezuelan government, and is the 
president of a Caracas-based Islamic center, to provide 
financial support to Hezbollah. Among his activities were 
providing Hezbollah donors with specific information on how to 
route their contributions such that they would go directly to 
Hezbollah. Nasr al Din met with senior Hezbollah officials in 
Lebanon to discuss operational issues and facilitated the 
travel of Hezbollah members to and from Venezuela.
    At the same time as we took action against Nasr al Din, we 
also exposed and sanctioned another Venezuelan-based Hezbollah 
supporter, Fawzi Kan'an, and two travel agencies that he 
operated out of Caracas.
    Of course, Venezuela has also been deepening its economic 
and diplomatic ties with Iran, as the committees' members have 
noted. The growing ties between Venezuela and Iran are very 
worrying, especially as they stand in such stark contrast to 
the global trend in which the world is moving to isolate Iran 
because of its pursuit of nuclear weapon and other 
destabilizing activities.
    In 2008, the Iranian government established the 
International Development Bank of Caracas, or Banco 
Internacional de Desarrollo, in Venezuela. Shortly after its 
opening, we moved to sanction this bank under our 
counterproliferation authorities due to the bank's relationship 
with the Export Development Bank of Iran. We will act firmly 
and quickly to deny a purchase to any attempted successor.
    We have also named under our sanctions authorities the 
Iranian oil company Petropars and targeted its operations in 
Venezuela in particular.
    Finally, we have been extremely active in the field of 
combating narcotics trafficking and have sanctioned thousands 
of entities across Latin America, including in Venezuela. Among 
those we have sanctioned, high level Venezuelan officials who 
were involved with the FARC, including the head of Venezuela's 
military intelligence agency, their chief of state security, 
and their former interior minister.
    The threats posed by Iran, terrorism, and narcotics 
trafficking are complex and we work closely with our 
interagency colleagues to bring all of our tools to bear 
against these threats in Venezuela as elsewhere, and our work 
can and must continue.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Szubin follows:]
    [GRAPHIC] [TIFF OMITTED] 71297.009
    
    [GRAPHIC] [TIFF OMITTED] 71297.010
    
    [GRAPHIC] [TIFF OMITTED] 71297.011
    
    [GRAPHIC] [TIFF OMITTED] 71297.012
    
    [GRAPHIC] [TIFF OMITTED] 71297.013
    
    [GRAPHIC] [TIFF OMITTED] 71297.014
    
    [GRAPHIC] [TIFF OMITTED] 71297.015
    
    [GRAPHIC] [TIFF OMITTED] 71297.016
    
    Mr. Chaffetz. Thank you. Appreciate that.
    I am now going to recognize the chairman of the Foreign 
Affairs Subcommittee on the Western Hemisphere, Mr. Mack from 
Florida, for 5 minutes.
    Mr. Mack. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony here today. I 
don't think we need to continue to harp on this, but we look 
forward to more open dialog and cooperation from all of you.
    So it sounds to me that we are in agreement that Chavez is 
sponsoring terrorism, whether through narcotrafficking, through 
his cooperation with Iran, through support of Hezbollah and the 
FARC and other terrorist organizations. So it sounds to me that 
there is agreement. I think where the problem lies is what do 
we do about it.
    So I first want to make this point, and I will say it 
again. We are happy that there were sanctions placed on Chavez. 
What we are not happy about is that the three sanctions that 
were placed on PDVSA, the denial of export-import bank loans, 
credits, denial of licenses for the U.S. export of military and 
militarily useful technology, and prohibits on U.S. 
Government's procurement from entities, these are things that 
are already not happening. So we can also agree that these are 
toothless, is that right?
    Mr. Delare. Chairman Mack, I would respectfully disagree 
with that final evaluation. I wouldn't say they are toothless, 
because what we have done is warned the international business 
community that there is a danger of dealing with PDVSA.
    Mr. Mack. Okay, so the designation of being sanctioned is 
important, but the actual sanctions that took place don't have 
any teeth, because these are things that we are currently not 
doing with Venezuela.
    Mr. Delare. Chairman Mack, the fact is Congress has given 
us a calibrated set of tools to use in instances like this, 
basically implying that we have to make a very complicated 
calculation as to U.S. interest in each one of these instances. 
Now, we had to judge whether the sanctions would induce PDVSA 
to stop its behavior. So far we have----
    Mr. Mack. I understand that. I am sorry. So the fact that 
you made the sanctions is important here. What you sanctioned 
isn't important because these things are currently not being 
done with Venezuela in the first place. So that is my take, and 
I think that is most everybody else's take. There are other 
tools that are available.
    Mr. Delare. Yes, we do.
    Mr. Mack. Restriction of imports, also prohibiting the 
sanctioned entity from acquiring, holding and trading any U.S.-
based property. So there are other sanctions that we can use.
    First of all, let me ask you this. Who owns PDVSA?
    Mr. Delare. It is 100 percent owned by the Venezuelan 
government, sir.
    Mr. Mack. So there is no mistake, then, that the actions of 
PDVSA isn't by some company, it is by the government of 
Venezuela.
    Mr. Delare. I think we can assume there is an intimate 
relationship there.
    Mr. Mack. I would assume that Chavez has full control over 
PDVSA.
    Mr. Delare. But, sir, we also make a calculation as to U.S. 
interest. And if 10 percent of US. Oil imports are coming from 
Venezuela, with three U.S. refineries dependent on Citgo, 6,000 
gas stations, 3,000 other employees, we have to weigh those 
factors as well, especially, during the period of spiking oil 
prices.
    Mr. Mack. Sir, then I would suggest that the State 
Department sign off on the Keystone XL pipeline, which will 
then be able to take over for any oil that we are getting from 
Venezuela. It seems to me that if you or the State Department, 
if you are going to continue to say we have a strategic 
interest in their oil and we have the ability to get oil from 
somewhere else, then we ought to get it somewhere else. 
Wouldn't you agree?
    Mr. Delare. I would say generally that is a fair point of 
view.
    Mr. Mack. So we can expect the State Department to sign off 
on the Keystone XL pipeline?
    Mr. Delare. I can only promise to take your views back, 
sir.
    Mr. Mack. I think they know my views.
    So, again, the definition countries determined by the 
Secretary of State to have repeatedly provided support for acts 
of terrorism, that is the State Department's definition of a 
state sponsor of terror, correct?
    Mr. Benjamin. That is the basis for the designation, yes.
    Mr. Mack. But that is the definition, that is what is 
posted on the Web site, that is what the State Department says. 
So how can you not designate Chavez as a state sponsor of 
terror when we know about the narcotrafficking, the support of 
Hezbollah? Even if it is just fundraising. By the way, I 
thought that was kind of interesting, I don't remember who said 
it, that it's only in fundraising. But fundraising is the 
mechanism that allows Hezbollah to work. So we know drugs, 
terrorist organizations, support of Iran, all three of these 
things would be determined by the Secretary of State to 
repeatedly provide support for terrorist organizations.
    Mr. Benjamin. Well, the statute, sir, allows the Secretary 
discretion to decide when repeatedly is sufficient enough to 
merit the imposition of this designation. And as I said in my 
oral statement, sir, our approach is very much predicated on 
effectiveness and what it is that is going to get Venezuela to 
stop behavior that we believe is unacceptable. That is why we 
have instituted a calibrated iterative process in which we are 
escalating pressure, as appropriate, without having follow-on 
or side effects that we believe would harm our own national 
security and harm the interests of those who we cooperate with 
very closely, including to contain Venezuela's behavior.
    Mr. Chaffetz. Thank you. The gentleman's time has expired. 
Given the number of Members on this panel, I would ask Members 
to keep within the 5-minutes, but we will allow our witnesses 
to answer past that moment.
    We will now recognize the ranking member of the committee, 
Mr. Tierney.
    Mr. Tierney. Thank you.
    Obviously, when you talk about the sanctions, Congress 
passed a bill that allowed the Secretary some discretion into 
how she applied those sanctions, am I right, Ambassador?
    Mr. Benjamin. Absolutely correct.
    Mr. Tierney. So the task for the Secretary at that point in 
time is to calibrate, as you say, or to make a determination as 
to which sanctions to implement at any given time and try to 
get the response she wants from that, while at the same time 
taking into other considerations of what may happen to impact 
our allies or our own interests, is that right?
    Mr. Benjamin. Correct.
    Mr. Tierney. So I don't want to get into negotiating here 
in public with Venezuela or anything of that nature, so can I 
ask you to give us a broad range of all of the competing 
interests that we have there? When the balancing is going on, 
give us a range of what types of things we are balancing, the 
cooperation with Colombia in terms of drugs and borders, other 
things like that. Just give us some idea of all the different 
interests.
    Mr. Benjamin. Well, I will defer in a moment to my 
colleagues from the Regional Bureau from Western Hemisphere 
Affairs, but certainly the diplomacy with Colombia is very 
important. Colombia would be very, very sharply affected by 
such a designation. Since Colombia is at this time making 
significant progress in dealing with Venezuela and in 
curtailing those activities that we find objectionable, it 
would seem to be counterproductive to do that at this time.
    Additionally, there are such second and third order effects 
as catching the business dealings of lots of closely allied 
countries up in the state sponsorship net, if you will, that if 
other countries that were doing business with Venezuela 
suddenly found themselves to be in danger of being sanctioned, 
that would be problematic. I believe Mr. Delare has spoken to 
the issue of our energy concerns in this regard. So there is a 
whole array of different interests that need to be taken into 
effect, and I think Mr. Whitaker may have more to add on that.
    Mr. Whitaker. If I could just add on a couple of points 
here. U.S. policy in Venezuela is a number of folks want 
democratic development, supporting U.S. persons, U.S. national 
security, and then counternarcotics and counterterrorism. All 
of those are very important to us. We would need to weigh, it 
seems to me, the effect of any sanction we take on issues like 
that. Ambassador Benjamin mentioned the effect it would have of 
a sanction against Venezuela when Venezuela views Colombia as a 
close ally of the United States. How would Venezuela then react 
with respect to its diplomatic efforts in Colombia? That is 
unknown to me, but it is out there.
    Venezuela consistently tries to define the democratic 
opposition in Venezuela as tools of the United States. Again, 
that might be an avenue or a place where the Venezuelan 
government would seek to identify that group and take some 
action in response to an action that we took.
    Finally, we have many U.S. companies in Venezuela and it is 
our goal as the Department of State to understand their 
interests, defend their interests, and we would need to take 
into account, as well, any impact in that regard with respect 
to those companies that continue to do business in Venezuela.
    Mr. Tierney. Thank you. If the Secretary has just decided 
to throw the book at Venezuela and just take the more extreme 
sanctions on that, what would the anticipated, current 
anticipated response of the Venezuelan government be?
    Mr. Whitaker. It is hard to say. I have worked on Venezuela 
since 2005 and Hugo Chavez can be unpredictable. But one of the 
threads of his policy since taking office in 1999 is 
consistently to try to turn whatever problem or issue that 
arises into one of him versus the United States, whether that 
is accurate or not. I think that he would do this, he would 
seek to turn this into a matter of a U.S. attack on his 
government and seek to use it for internal political purposes. 
How that would manifest itself, whether in diplomatic policy or 
with respect to democratic opposition in Venezuela or with 
respect to U.S. companies, is difficult to predict.
    Mr. Tierney. So in striking this balance so far, and I 
assume that you recalibrate frequently on this, look on that 
basis, how would you rate the performance so far? Are you 
getting the results you want? Are you considering further 
sanctions? Are you thinking that things are moving along the 
way you want them to or are you just thinking that we have to 
do something else, you are just not sure what yet?
    Mr. Benjamin. I would say that it is early to issue the 
report card given the recent activities, the recent sanctions 
that have been imposed. We are, I would say, somewhat 
optimistic because of the actions that Chavez has taken in 
terms of extraditing FARC operatives from Venezuela to 
Colombia, encouraged by his apparent solicitousness of 
Colombian demands, and encouraged as well by the fact that 
there haven't been--and I will let Mr. Delare clarify this, if 
he wants--that there haven't been further shipments of the 
kinds of petroleum additives, gasoline additives of the kind 
that were recently sanctioned. So at the moment we are 
cautiously optimistic.
    Mr. Chaffetz. Thank you. The gentleman's time has expired.
    We now recognize the gentleman from Ohio, Mr. Chabot, for 5 
minutes.
    Mr. Chabot. I thank the chairman. Just a couple of 
questions, maybe an observation first.
    Obviously, in our capacity as Middle East and South Asia, 
that is where we devote most of our energy and time, I happened 
to be in the region there recently and Saudi Arabia is 
obviously very concerned at this time about Iran exploiting the 
so-called Arab Spring, or whatever terminology one prefers, and 
they seem themselves as being encircled, whether it is Yemen, 
Egypt has closer relations with Iran than it did before, 
Bahrain, and we saw the Saudi reaction there.
    But certainly Iran is flexing its muscle and I really do 
welcome and commend my fellow chairs for talking publicly about 
this, Venezuela in connection with Iran, because it is of great 
concern; it shows that this Iranian threat is really global in 
nature. And, obviously, Saudi Arabia, you know, a lot of oil 
there, but the most known resources in the world at this time, 
Iran is second or third depending on the study that you see.
    But the point I would like to get to at this point is oil 
is a commodity obviously on the world markets, and what we pay 
here in the United States is affected by that supply, so our 
interest here, whereas we do import Iranian oil and it affects 
the price here, depending on how much we get from there and 
elsewhere, I think many of us believe that we made really a 
terrible mistake becoming so dependent upon foreign oil in many 
ways, and some of that is by restricting access to our own 
resources, whether it is Anwar or the Outer Continental Shelf 
or a whole range of other things here.
    But relative to Venezuela, and I would invite this from 
anyone, are we putting ourselves in a much more vulnerable 
position when essentially we are reliant upon this Venezuelan 
oil; the money goes down there and they are clearly one of the 
bad actors in this hemisphere right now, and what they are 
doing is against our best interest? So this continuing to be so 
dependent upon foreign sources of energy, our policies in that 
area have been counterproductive here. Would you agree with 
that, Mr. Delare? I would ask you if you would like to take 
that.
    Mr. Delare. Well, I think there is little to argue about in 
your statement there, sir, because it is a fact that our 
sanctions policies are often directed at those countries who 
are oil producers and, of course, we are dependent on that 
external source of energy. I think we all wish it were true 
that we had many alternate sources of energy to depend on, but 
at this historical point in time we have to move very carefully 
as to how we apply some of the tools that have been provided to 
us so we can maintain the flow of energy to our market, while 
still demonstrating a strong political message that certain 
kinds of behaviors are unacceptable.
    Mr. Chabot. And I think it is clear that Venezuela, and 
Chavez in particular, has been using American money, 
essentially, either to bribe or influence other nations in this 
hemisphere, and the actions that they are encouraging them to 
take are oftentimes diametrically opposed to what is in the 
U.S.' best interest. I think we basically have in Venezuela now 
what we had in Cuba over the last number of decades, the 
difference being, of course, Cuba didn't really have a 
resource; they were dependent upon the former Soviet Union. 
Venezuela has oil, so it is perhaps even more dangerous than 
Cuba was over these last decades.
    I would, at this time, I didn't give them a lot of time 
there, it wasn't much of a question, but I would like to yield 
to the gentleman for any time I have remaining.
    Mr. Mack. Thank you. And to that point I believe that we 
are sending basically $117 million a day to Venezuela through 
PDVSA, so we are funding someone who we have sanctioned. We are 
funding this activity that supports terrorist organization 
through this funding. And once again I think the State 
Department needs to look at alternative ways, instead of 
continuing to buy oil from Chavez, we need to find alternative 
ways to get that oil.
    Mr. Chaffetz. The gentleman's time has expired.
    I would like to let Members know we have one vote on the 
floor. It is the intention of the Chair to recognize Mr. Sires 
for 5 minutes for his questioning, then stand in recess until 
10:30, then we will resume the remainder of the hearing. So, 
with that, we will recognize Mr. Sires for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    I want to get back to this question of Iran and the flights 
into Venezuela and the activity in Venezuela. I had dinner with 
a group of people and they tell me that the amount of people in 
the Iranian embassy in Venezuela is one of the largest in the 
world. I talk to other people; they tell me that that is not 
true.
    In your best estimation, what is the embassy in Venezuela 
from Iran, the personnel, how many people do they have there? 
How active are they? How many flights a week do they have? Does 
it conform with the--I don't want to say conform, but the 
amount of flights that you have into Venezuela, would eight 
people be enough? Can anybody respond to that?
    Mr. Whitaker. I can try, Congressman. There was, some 
months ago, a direct flight initiated between Tehran, Damascus, 
and Caracas. Our information is that as of September 2010 that 
flight, the Tehran link was dropped and it is now a Caracas-
Madrid-Damascus flight and return. There are continuing rumors, 
as I think you mentioned in your opening statement, that the 
individuals who arrive in Venezuela are not subject to customs 
and immigration controls. We have heard those stories too. We 
don't have a way of verifying them.
    Since 2006 we have attempted to conduct, DHS has attempted 
to conduct the statutorily required inspections of the airports 
in Venezuela because they are endpoints for flights to the 
United States. Because Venezuela refused to permit those 
inspections, safety inspections, security inspections, in 
September 2008, DHS issued a public notice on this point 
informing passengers of our inability to do the inspections.
    In an example of I am not going to call it progress, but 
there has been a change and TSA was able to make a visit to 
Venezuela last week. They spoke to Venezuelan security 
officials. This is not the end of a process, but for the first 
time since 2006 we actually had a meeting on this topic.
    Now, in terms of the size of the Iranian embassy in 
Venezuela, according to the diplomat list, there are 14 
diplomats there. There are many embassies in Venezuela, 
including our own, that are far larger than that. I was DCM in 
Venezuela. I didn't consider it to be a particularly active 
embassy in terms of diplomatic activities; showing the face, 
public diplomacy, etc. What we can't judge, of course, is how 
active they were within the Venezuela government.
    But there is additional information on this and, if 
appropriate----
    Mr. Sires. So how many flights do you have a week now?
    Mr. Whitaker. It is a weekly flight.
    Mr. Sires. Just one.
    Mr. Whitaker. And it doesn't go to Tehran.
    Mr. Sires. So all these things, all these rumors that there 
were two or three flights a week, all these crates that are 
coming in and out, you can't confirm any of that.
    Mr. Whitaker. There previously was a weekly flight; there 
is no more.
    Mr. Sires. Currently, Chavez is in Cuba. Do you have any 
information on that? I mean, supposedly he got an operation in 
Cuba.
    Mr. Whitaker. What we know, what we can talk about here is 
in early May he had what he defined as a knee operation. In 
June he came out publicly and said that he had a pelvic abscess 
drained. He has not appeared in public for some weeks now. He 
has----
    Mr. Sires. He is convalescing with Castro, maybe.
    Mr. Whitaker. There was a picture of the two of them 
together, and Castro looked better than Chavez in the picture.
    Mr. Sires. Unfortunately.
    Mr. Whitaker. And he has not tweeted in his Twitter account 
for some weeks, which sounds jocular, but in fact he is a very 
active tweeter, and it is interesting that he has gone off 
line.
    Mr. Sires. I don't know if that is a good idea.
    Are we helping the opposition? I know the opposition is 
growing in Venezuela. Are we assisting the democracy process in 
Venezuela?
    Mr. Whitaker. Sure. Thank you for the question. Since 2002, 
the United States, through USAID, has provided support to 
encourage the development of civil society and democratic 
practices in Venezuela. Much of what we have done in recent 
years has focused on get out the vote, defend the vote, protect 
the vote, and these kinds of activities to ensure that the 
maximum number of people can vote in free and fair conditions. 
I think it is important to note that we do this in an 
ecumenical way; it is not designed to approach any particular 
political end, but to support democracy as democracy.
    Mr. Sires. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. The gentleman's time has expired.
    We have roughly 8 and a half minutes left in the vote. This 
committee will stand in recess until, let's call it, 10:35 now, 
and then we will resume the remainder of the hearing.
    [Recess.]
    Mr. Chaffetz. The subcommittee will now come back to order. 
We thank you for your patience and understanding as we had a 
vote on the floor.
    We will continue and I am going to recognize myself for 5 
minutes and we will go from there.
    According to the records, the U.S. Government provides 
approximately $5 million to Venezuela annually for democracy 
related assistance. What is happening with that money? Why do 
we give it and how do we monitor where it goes?
    Mr. Whitaker. Thank you for the question, Chairman. The 
purpose of our democracy funding is to encourage the 
development of civil society in order to ensure that Venezuelan 
democracy be as robust and inclusive as possible. We have used 
a number of different tactics over time. This program has been 
in place since 2002 and has averaged about $5 million a year. 
It has gone up and it has gone down.
    Initially, the democracy program was intended to encourage 
reconciliation in the wake of the 2002 coup. Over time, 
government-affiliated, Chavez-affiliated actors have refused to 
participate in these programs, which we regret because they are 
intended to be ecumenical in nature, that is, open to all, 
politically balanced, and in support of the process rather than 
any particular----
    Mr. Chaffetz. The details of what is going on in that 
program and how that money is spent, is that something you can 
provide to the committee in, say, 30 days? Would that be fair?
    Mr. Whitaker. Absolutely. More than enough time.
    Mr. Chaffetz. Thank you.
    I would like to yield now to the gentleman from Florida, 
Mr. Mack, for the remainder of my time.
    Mr. Mack. Thank you, Mr. Chairman. Just for the committee's 
knowledge, my recommendation to the full committee is that that 
budget be zeroed out moving forward.
    I want to go back to kind of the sentiment that Chavez will 
use this kind of struggle between the United States for his own 
benefit. I have been pretty consistent on the other side of 
this feeling. So what we have in Hugo Chavez is a classic 
bully. So he tries to get people to do things based upon fear 
of what he might do.
    And I think this is an important point. Instead of looking 
at what it is that we are fearful that Chavez might do, we 
ought to look at what is the right thing to do for national 
security, what is the right thing to do for the people of this 
country, and what is the right thing to do for our friends in 
Latin America and around the world; not because of threats from 
a bully. So I hope that--I would love to hear, if you want to 
make comment on that, but let me just add this one other piece 
to that.
    You also talked about that we have had beginnings of some 
strides where there has been some extraditions from Venezuela 
to Colombia of some drug kingpins. But the reality is that is 
not due to the actions of the United States; that is due to the 
actions of the president of Colombia, Santos. I will remind you 
of the Makled case where we fell asleep at the switch. He was 
arrested on a war warrant. When they arrested him, the 
Colombians asked if we wanted them and we said we are not 
interested, and then they sent him to Venezuela. That is why 
the extraditions are happening, not because of some great 
policy position or foreign policy by the U.S. Government.
    If you care to react to those two statements, I would love 
to hear it.
    Mr. Whitaker. Thank you, Mr. Chairman. On the first point, 
I think that the reaction or potential reaction of Chavez with 
respect to the United States and trying to demonize the United 
States with respect to Colombia, with respect to the democratic 
opposition in Venezuela are all matters that one can make 
analysis about. They are factors. I wouldn't say that any one 
is necessarily the determining factor. What we are looking for 
is results. In the case of the CISADA sanctions, for examine, 
there is a very specific result that we want and the sanctions 
were designed in order to achieve that result.
    On the extraditions, actually, and I don't want to overplay 
this because there is much more that Venezuela could do, but 
just since July 2010 we have gotten on the order of 10 senior 
narcos who were deported directly to the United States, removed 
from Venezuela directly to the United States----
    Mr. Mack. I am going to go through, because I just want to 
hammer this point home that Hugo Chavez--well, my time is 
running out, so I will thank you and I will apparently have 
another opportunity to speak with you again. Thank you.
    Mr. Chaffetz. Thank you.
    We now recognize the gentleman from American Samoa, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I do thank our witnesses for their testimony this morning. 
I just want to follow up on a couple of issues or questions 
that were raised, at least I would like to raise at this point.
    We do recognize, gentlemen, that you are just simply 
following what the statute, or at least what we did in the 
Congress, passed laws and statutes. You are just simply trying 
to enforce these sanctions, laws, whether it be for economic 
reasons or whatever. I noted with interest that earlier 
Chairman Chabot, the subcommittee had asked the question about 
Venezuela's oil supply, and I am just curious, for the record, 
what is the total dollar value of oil that we import from 
Venezuela, say just last year or say in the period of the last 
5 years?
    Mr. Delare. Congressman, the figure I used earlier in my 
testimony, or maybe I didn't, was 900,000 to 1 million barrels 
per day. I would have to get back to you with a formal response 
and cost it out for you.
    Mr. Faleomavaega. Yes. I would think it is important that 
we need to know. My next question for the record, exactly how 
many sanctions do we have against Venezuela at this point in 
time? You know, I know there are sanctions against individuals, 
sanctions against companies, sanctions against officials of the 
government, sanctions for terrorism, sanctions on nuclear 
transfer, on nonproliferation. What is the total number of 
sanctions that we currently have against Venezuela?
    Mr. Whitaker. Well, we can go through them. There is not 
fully cooperating on counterterrorism matters, which was 
imposed in May 2006. Every year since 2005 they have been found 
to have demonstrably failed in their international 
counternarcotics obligations----
    Mr. Faleomavaega. Well, as I listened to your statements, 
do I see maybe a count of 9 or 10 different sanctions that we 
put against Venezuela, small sanctions?
    Mr. Whitaker. And then there are sanctions against 
individuals. So when you net it all out, there are a number of 
sanctions that have been applied.
    Mr. Faleomavaega. Yes, at least how many, 9 or 10? Be more 
specific. I would appreciate it.
    Mr. Whitaker. Some of these are broader sanctions. For 
example, the not fully cooperating on terrorism implies other 
actions, for example, a ban on the sale of defense articles. So 
do you count that as a single sanction? Then that would be one 
sanction.
    Mr. Faleomavaega. Well, here is my whole point----
    Mr. Mack. Would the gentleman yield for just a quick 
second?
    Mr. Faleomavaega. I would be glad to yield to the chairman.
    Mr. Mack. Thank you. On the question that you asked 
earlier, how much are we sending, it is approximately $117 
million a day.
    Mr. Faleomavaega. And that includes Citgo Oil Co.?
    Mr. Mack. That is what we are sending PDVSA.
    Mr. Faleomavaega. The money that we are paying, the oil 
that we are getting from Venezuela?
    Mr. Mack. It is $117 million a day.
    Mr. Faleomavaega. Do you gentlemen agree to that figure, 
$117 million a day that we are paying Venezuela?
    Mr. Delare. Well, sir, it obviously goes up and down 
depending on the production levels in Venezuela, the 
consumption levels of energy in Venezuela and the market. As I 
mentioned, I would be happy to give you a more formal reaction 
in writing.
    Mr. Faleomavaega. And I thank the chairman for that figure 
because the point I want to make is that we are putting all 
these sanctions into one zap, the fact that Venezuela has this 
whole bunch of oil that it exports to our country, and doesn't 
it make our sanctions look somewhat a little oblivious to the 
idea that, so what, you put sanctions but we are still getting 
your money? Does this make our sanctions laws somewhat a little 
effective?
    Mr. Delare. If I may. The sanctions we are talking about 
are the sanctions directed against the government in Tehran. 
Now, of course, they capture Venezuelan activities in Tehran. I 
am sorry, in Venezuela because of this active economic 
partnership. But that is the focus of this particular sanction. 
So, no, I don't think it looks silly. By the same token, we 
have just sanctioned an Israeli company, a U.K. company, a 
Singaporian company.
    Mr. Faleomavaega. I am not trying to say that it makes it 
silly. My point is the point of being effective. Have they been 
effective if we really wanted to do as part of our foreign 
policy toward Hugo Chavez's regime and all that he has done, 
supposedly, contrary to our basic fundamental principles of 
democracy and all of this?
    Mr. Delare. Well, sir, I will just speak to the Iran side. 
We look at----
    Mr. Faleomavaega. No, I am not talking about Iran; I am 
talking about Venezuela.
    Mr. Delare. Okay. Well, we continue to provide him, 
obviously, with a flow of revenue. Now, if a decision is taken 
to somehow create another mechanism that we would want to 
restrict that, or if PDVSA continues to ship----
    Mr. Faleomavaega. But would you say there is somewhat of a 
contradiction that we have here? We are putting a whole bunch 
of sanctions against Venezuela and yet, at the same time, we 
are paying Venezuela $117 million a day for its oil supply.
    And I am sorry, my time is up, Mr. Chairman. Thank you.
    Mr. Chaffetz. Thank you. The gentleman's time has expired.
    We will now recognize the gentleman from Florida, Mr. 
Rivera, for 5 minutes.
    Mr. Rivera. Thank you very much, Mr. Chairman.
    Congressman Sires alluded moments ago to the relationship 
or that nexus between Venezuela and Cuba. I want to try to 
drill down a little bit more, and I know we are going to have 
another round, so if we don't get through it all, I will 
continue on the next round.
    For Mr. Benjamin, you are the coordinator for 
counterterrorism at the Department of State. How many countries 
are on the list, the U.S. State Department list of sponsors of 
state terrorism?
    Mr. Benjamin. Currently on the list, Iran, Syria, Cuba, and 
Sudan.
    Mr. Rivera. So four countries. And with respect to Cuba, 
why is Cuba on that list?
    Mr. Benjamin. Cuba was put on the list, I believe, in 1982 
because of its support, principally for its support of various 
terrorist and revolutionary movements within the hemisphere. 
And I think it is important to underscore that Cuba has not met 
the standard for recision, which is to say that we need to be 
able to either certify that there has been a fundamental change 
in leadership and the country has ceased to support 
international terrorism or that the administration can certify 
that Cuba has gone 6 months without support to foreign 
terrorist organizations and has given assurances that it will 
not support any international terrorism in the future. Because 
of its continued relationship with the FARC and the ELN, Cuba 
has failed to meet that standard.
    Mr. Rivera. So Cuba has a relationship with the FARC, the 
ELN, both terrorist organizations. What about ETA?
    Mr. Benjamin. It is a good question, sir. I don't recall if 
there is any continued relationship with ETA, but I can get 
back to you and confirm that.
    Mr. Rivera. What about any Middle East based terrorist 
organization, Hamas, Hezbollah?
    Mr. Benjamin. I am unaware of any fundraising activity or 
operational activity from either of those groups in Cuba, but I 
would double check, too, and ensure that is correct.
    Mr. Rivera. Is Cuba harboring any terrorists?
    Mr. Benjamin. Cuba has, over time, harbored members of the 
FARC and the ELN, and I believe also ETA, although I don't know 
if they are currently doing so.
    Mr. Rivera. You don't know if they are currently 
harboring----
    Mr. Benjamin. ETA.
    Mr. Rivera [continuing]. ETA. But currently they are 
harboring FARC and ELN terrorists?
    Mr. Benjamin. Yes, they have.
    Mr. Rivera. How about members of the FBI Most Wanted list? 
How many of those do we have in Cuba?
    Mr. Benjamin. Frankly, sir, that is in the law enforcement 
channel, and I would have to get back to you on that.
    Mr. Rivera. Well, let me refresh your memory. Does the name 
Janet Chesimard mean anything to you? Would you consider her a 
terrorist?
    Mr. Benjamin. Sir, I would have to get back to you. I am 
not familiar enough with the case.
    Mr. Rivera. You are not familiar with the Chesimard case?
    Mr. Benjamin. No, not sufficiently to give you a----
    Mr. Rivera. I am going to yield for a moment to Congressman 
Sires to perhaps give us a little bit of the background, since 
this occurred in his home State.
    Mr. Sires. Thank you, Congressman. There is currently a $1 
million bounty on Chesimard. She was accused of shooting a 
State police officer point blank on the highways in New Jersey, 
so that is the reason. The State police has put a reward of $1 
million. She has been in Cuba now for a number of years.
    Thank you, Congressman.
    Mr. Rivera. Thank you, Congressman.
    And I believe that that was not just a random robbery 
against the trooper; it was politically motivated. And I think 
most people would consider that a terrorist act. So I hope you 
will become a little more familiar with that case in 
particular.
    What about narcotraffickers in Cuba?
    Mr. Benjamin. I think some of my colleagues may have more 
to say on the narcotrafficking issue. Mr. Whitaker.
    Mr. Whitaker. Yes. As Ambassador Benjamin noted, there is 
evidence in the past of ELN and FARC members having been 
present in Cuba. There are continuing allegations of Cuban 
government involvement in narcotrafficking, but nothing that we 
have been able to act upon. Again, as Ambassador Benjamin 
noted, much of this is in law enforcement channels. I would 
note that we have tried to reach out to the Cuban government 
and we have a Coast Guard attache who tries to work with the 
Cuban government in order to identify and interdict----
    Mr. Rivera. Before my last few seconds, just let me say 
that in my next round I want to follow up on this because it 
seems as though we are placing sanctions on Venezuela, which is 
not on the terrorist list, but more recently we are lifting 
sanctions on Cuba, and I will get into that in the next round, 
which is on the terrorist list and in fact is harboring a cop 
killer from this country. So I will go into that in the next 
round.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    I will now recognize the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. And I apologize, I was 
a little late getting back, so let me ask if you have addressed 
this. Have you spoken about the Venezuela airline Conviasa at 
this point?
    So my question is as follows: The United States announced 
that it is going to sanction Iran Air for its role in shipping 
sensitive technology and weapons. Conviasa routinely flies 
Caracas to Tehran. Can you speak to the possibility of 
sanctioning that airline? And wouldn't it be possible, as well, 
to sanction any airline that flies in and out of Tehran if it 
can be linked to the shipping of sensitive technology and/or 
weapons?
    Mr. Benjamin. I will give the preliminary answer, and then 
my colleagues may want to follow up.
    As a practical matter, we do not discuss designations in 
public because of the possibility of tipping potential 
designees. Regarding the hypothetical of whether others who are 
involved in supporting Iranian efforts to advance their nuclear 
program, it is certainly within the scope of the legislation to 
do that, and we would certainly look hard at doing that.
    But, again, I will let those who deal with sanctions and 
the Venezuelan case specifically----
    Mr. Deutch. And before they do, Mr. Benjamin, my point here 
is I would very much like to tip off, that is the purpose of 
the question. I would like to tip off any airline that is 
engaged in transporting this sort of sensitive technology and/
or weapons into or out of Tehran that they would be subject to 
these sanctions. That is what I am trying to confirm.
    Mr. Benjamin. I think that that is a well known fact, that 
airlines and other businesses in support of that effort can be 
sanctioned.
    Mr. Deutch. Then let me just move on to the sanctions 
regime.
    Mr. Delare, your office commences and conducts all of the 
investigations of the companies that may be subject to 
sanctions?
    Mr. Delare. Mr. Deutch, no, we primarily work on the energy 
side of things.
    Mr. Deutch. Right.
    Mr. Delare. We work closely, of course, with Mr. Szubin on 
a variety of other things, but----
    Mr. Deutch. But under CISADA, the focus on investments in 
the energy sector, those would be your investigations.
    Mr. Delare. Correct.
    Mr. Deutch. How many people do you have in your office who 
are conducting those investigations?
    Mr. Delare. At the present time we have four, plus support 
from our legal staff and the intelligence and research bureau.
    Mr. Deutch. Four full-time employees?
    Mr. Delare. Call it three and a half.
    Mr. Deutch. Three and a half full-time employees who are 
responsible for conducting the investigations to determine 
whether a company could be subject to sanctions under CISADA?
    Mr. Delare. That is correct.
    Mr. Deutch. I won't ask you if whether that is a sufficient 
number, but I will ask whether it will be possible to--let me 
do it this way. How many more investigations could be conducted 
at one time? How many can be conducted by one person? Let me 
start with that.
    Mr. Delare. That is an interesting question. As it now 
stands, we have it divided by sectors, and I have, I think, 
everyone in the office doing a number of things simultaneously 
because various--let's face it, a lot of media reports come in 
the door; they have to be evaluated. We then begin checking 
trade press, embassies, businesses, the intelligence community. 
So it is a constant pushing things through a process with lots 
of things at different stages, so it is hard to answer that 
correctly.
    Mr. Deutch. Well, let me be a little more direct. For those 
of us who have expressed frustration that the pace of the 
investigations--well, it is not even the pace; we are not sure 
the status of some of these investigations because we are not 
informed until the end--but the frustration that they don't 
seem to be moving quickly enough, could that be addressed if 
you had additional investigators, if you had more than the 
three and a half people who are responsible for all 
investigations?
    Mr. Delare. I think that is a fair assessment. But let me 
also make two points in regard to that. CISADA is a relatively 
new piece of legislation, even though it dates back to last 
July. Now, in the intervening period since then we have set up 
a procedure that never existed before. We have been exceedingly 
careful to do due diligence on everything we have done. Hence, 
we probably have spent a little more time as we get used to 
this than would be necessary, double checking facts----
    Mr. Deutch. Mr. Delare, I am sorry, I only have 10 seconds 
left.
    Mr. Delare. I am sorry.
    Mr. Deutch. Let me just ask one last question. If companies 
were required to disclose in their filings made to the SEC, 
those companies that trade on American stock exchanges, whether 
they are doing business in Iran, that would be considered 
credible evidence and should immediately subject them to the 
possibility of sanctions, correct?
    Mr. Delare. It seems like that may be so. Let me get back 
to you more formally.
    Mr. Deutch. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    We will now start the second round by recognizing the 
gentleman from Florida, Mr. Mack, for 5 minutes.
    Mr. Mack. Thank you, Mr. Chairman.
    Mr. Ambassador, could you tell us again why Cuba was put on 
the state sponsor of terrorism list in 1982?
    Mr. Benjamin. It was put on the state sponsorship list for 
supporting foreign terrorist organizations engaged in 
activities primarily in this hemisphere, but, again, for 
repeated acts of support of international terror.
    Mr. Mack. Okay. And then in answering questions from my 
colleague, Mr. Rivera, you outlined some of those terrorist 
activities. Can you tell me what the difference is between Cuba 
and Venezuela?
    Mr. Benjamin. I think it is important to underscore that 
the process of putting a state on the list and the process of 
taking another state off the list are two very different 
things. We have a very high bar for taking countries off the 
list. We want to make sure that when we put countries on the 
list, that we are not setting such a low threshold that we will 
both incur, create side effects that will undermine our efforts 
and our broader national security interest. As a result, one 
secretary of state after another has looked very carefully at a 
number of different countries over the years for a possible 
listing----
    Mr. Mack. But you gave us the definition of why Cuba was 
put on the state sponsor of terrorism list, which is exactly 
what Chavez is doing in Venezuela. So why is it that we have 
Cuba as a state sponsor of terror and not Venezuela? And it 
goes to this point, the inconsistencies that I think another 
member brought up. On one hand we have restricted visas to 
people in Honduras who have fought for and defended their 
constitution, the rule of law, their freedom, and their 
country.
    On the other hand, there are people in Venezuela who are 
not restricted and they are supporting terrorist organizations. 
So how can Cuba, under your definition, be put on the state 
sponsor of terrorism list and then Venezuela, doing the same 
thing, not be placed on the state sponsor of terrorism list?
    Mr. Benjamin. First of all, I am not conversant with the 
Honduran case, but let me just say----
    Mr. Mack. Take my word for it.
    Mr. Benjamin [continuing]. As I said, this is about 
effectiveness and about using the appropriate tools at the 
appropriate time to elicit the correct response.
    Mr. Mack. When is the appropriate time?
    Mr. Benjamin. I think that is a matter that we have to 
evaluate on the basis of the activity going on. And I would 
say, sir, as we noted earlier, if the indicators are going in 
the right direction, it would seem not to be the right time 
to----
    Mr. Mack. You mean the indicators that are being brought 
about because of another country's actions, not ours?
    Mr. Benjamin. We judge countries by the totality of their 
activity, and if other countries can elicit good behavior, then 
we certainly view that as a positive development.
    Mr. Mack. Well, I just want to, real quick, if you can put 
up the first slide.
    You are familiar with that, right? If it walks like a duck, 
quacks like a duck and looks like a duck, then it is a duck, 
right?
    Next slide.
    If it walks like a terrorist, talks like a terrorist, and 
acts like a terrorist, then it is a terrorist. And you 
recognize Hugo Chavez and Fidel Castro, Raul Reyes, and 
Ahmadinejad. We can agree with that?
    Next slide.
    Hugo Chavez, ``Enough of the imperialist aggression. We 
must tell the world down with the U.S. empire. We have to bury 
imperialism this century.''
    Isn't Hugo Chavez a sponsor of terror?
    Mr. Benjamin. As I said before, sir, Venezuela is engaged 
in activities that we find unacceptable, and we are engaged in 
a sustained effort to get them to stop those activities, and I 
think that we are taking the appropriate measured approach to 
get them to stop those activities in a way that will produce 
results. We may have differences over the means to do it, but I 
believe that we are searching for the same goal.
    Mr. Mack. Thank you, Mr. Chairman.
    Mr. Chaffetz. The gentleman's time has expired.
    We will now recognize Mr. Sires of New Jersey for 5 
minutes.
    Mr. Sires. Can you talk a little bit about the arms build-
up in Venezuela? I understand that they have bought a 
considerable amount of weapons.
    Mr. Whitaker. That is correct, sir. The principle purchases 
that Venezuela has made over the course of the last several 
years have been from Russia, and they include high performance 
jet aircraft Sukhois, which have been delivered; they include 
T-72 tanks, which have not been delivered; air defense systems; 
and notably in excess of 100,000 AKM, AK-47 rifles.
    So there has been a significant arms purchase program by 
the Venezuelan government. Some of these purchases could 
probably be defined as purchases to replace superannuated, old, 
antiquated equipment. You might, for example, say that with 
respect to the Sukhois. Venezuela had long been a nation which 
purchased U.S. jet aircraft. We sold F-16s to Venezuela in the 
1980's. Those aircraft are at the end of their service life and 
the Venezuelan government chose to replace them with Sukhois. 
So that is an example of replacing superannuated equipment.
    Then you have examples of new capabilities, and the T-72 
tanks would be a new capability which traditionally Venezuela 
has not had.
    Mr. Sires. Isn't there also a factory that was built in 
Venezuela to make AK-47s or something like that?
    Mr. Whitaker. Venezuela and Russia have signed a contract 
to build such a factory that would produce AKM assault rifles. 
That factory is not presently in operation. There is actually 
more that we can provide to you on this in a different setting.
    Mr. Sires. The reason I ask that is because I had 
conversation with members of other countries, and one of the 
countries that I had conversations with was Panama, and they 
have found that Venezuela has tried to influence the people in 
the interior of Panama, the farmers, especially, so I am 
concerned that maybe some of these farmers are going to find 
their way through different countries in South America. Do you 
have any concerns about that?
    Mr. Whitaker. It would be a significant concern if 
Venezuela were to start exporting weapons of war to other 
nations. I think that what we have seen principally over the 
course of the last several years is rather than exporting 
munitions and weapons and things like that, is more trying to 
buy influence with money. That is the tactic that the 
Venezuelans have engaged in principally, in Central American, 
in the Caribbean, in Bolivia, for example. There are limits to 
Venezuelan largesse. Venezuela, as a matter of policy, has 
chosen to spread a lot of money into the population, and this 
has meant less money available to support these foreign 
activities that they would engage in.
    Mr. Sires. Talking about money, how much do you think 
Venezuela is sending to Cuba currently?
    Mr. Whitaker. The truth is we don't know the answer to that 
question. Publicly available information indicates that 50,000 
barrels of oil a day go to Cuba, and that would be free or 
virtually free. In addition, Venezuela has agreed to re-
engineer, rebuild a refinery in Cuba; that activity has not 
been completed.
    And then, finally, Cuba apparently charges for the doctors 
and other experts that it provides who work in Venezuela, the 
numbers of which, I mean, they are estimates and we don't have 
precise figures, but the estimates are 30, 40,000 individuals, 
and there is a fee that the Cuban government charges per person 
to the Venezuelan government.
    Mr. Faleomavaega. Would the gentleman yield?
    Mr. Sires. Yes.
    Mr. Faleomavaega. I just wanted to know, from Chairman 
Mack's statement, that we buy $117 million worth of oil a day 
from Cuba. By my limited knowledge----
    Mr. Sires. From Venezuela, you mean.
    Mr. Faleomavaega. From Venezuela. I am sorry. It is $42.7 
billion worth of oil that we buy from Venezuela each year. That 
is my limited knowledge of mathematics. But that is not 
peanuts, in my humble opinion.
    I thank the gentleman for yielding.
    Mr. Sires. Now that I lost my train of thought.
    I just want to add, following up on my friend, Congressman 
Rivera, there are more than just one felon in Cuba that are 
currently, it is not just Chesimard. There are close to 100 
that have escaped the United States and are in Cuba, basically, 
with sanction, living there, enjoying the beach, and everything 
else. Thank you.
    You have any comment about that?
    Mr. Whitaker. All I can tell you, sir, is, actually, in the 
past I worked on Cuba and I can tell you this is a regular 
topic of conversation we have with the Cubans, including with 
respect to Joanne Chesimard and other fugitives from U.S. 
justice.
    Mr. Sires. I can tell you that New Jersey State troopers 
are not going to ever give up the request to have Chesimard be 
expelled out of Cuba so she can be brought here to trial again.
    Mr. Whitaker. And we join them in that.
    Mr. Sires. Okay. Thank you.
    Mr. Chaffetz. The chairman yields back.
    I will now recognize myself for 5 minutes.
    Mr. Whitaker, isn't the only reason we haven't put 
Venezuela on the state sponsor of terrorism list, isn't the 
only reason because we consume a lot of their oil? Is that fair 
to say?
    Mr. Whitaker. Chairman, I would associate myself with what 
Ambassador Benjamin said. We are trying to engage in 
substantial iterative sanctions designed to accomplish 
different ends, and there are a number of factors that go into 
this process, including the economic effects we talked about, 
including the effects on democratic development.
    Mr. Chaffetz. So what other major economic effect is there 
other than oil? I mean, oil is a big one; we cited the number 
several times. That is the administration's concern, right? We 
consume a lot of their oil. That is the only thing that is 
holding us back, isn't it?
    Mr. Whitaker. Again, Mr. Chairman, I think that it is 
broader than that. I think that that is a factor. I think that 
the economic relationship, broadly stated, there are dozens and 
dozens of U.S. companies that do business in Venezuela today, 
some of which are intimately involved in the oil industry, 
provide oil support, oil services, some of which are 
international oil companies like Chevron, some of which are 
like Xerox, American Airlines. So these kinds of factors need 
to be taken into account as well, in addition to the effect on 
democratic development within Venezuela, the diplomatic 
outreach that our neighbors have engaged in.
    Mr. Chaffetz. Let me go to Mr. Szubin there. Let's talk 
about all this money that does flow in. Where does that money 
go once it gets to--do we have any idea or sense of where these 
oil profits go once they get to Venezuela? Does Treasury not 
track that at all? I mean, we send them over $100 million a 
day, so what is happening with that money?
    Mr. Szubin. I can't speak to Venezuelan government revenue 
allocation. Our office focuses on----
    Mr. Chaffetz. But it does go to their government.
    Mr. Szubin. Yes.
    Mr. Chaffetz. I am sorry, did somebody else want to address 
that? Mr. Whitaker.
    Mr. Whitaker. PDVSA's receipts go directly--this is a 
change from the past. In the past, PDVSA operated as--it was 
government owned, but it operated as an independent entity with 
its own financial structure. One of the changes that Chavez 
made was to insist on PDVSA's receipts going directly to the 
government. So if your assertion is that PDVSA receipts go 
directly to the government, I think that is accurate.
    Mr. Chaffetz. In comparison to other parts of their 
economy, what portion of their oil proceeds, of their economic 
input, how big is that in their economy?
    Mr. Whitaker. If you are talking about government receipts, 
it is about half of government receipts. If you are talking 
about exports, it is the lion's share of exports. I can get you 
the precise number, but it is in excess of three-quarters of 
the total receipts from exports.
    Mr. Chaffetz. Okay. Very good.
    Yes, yield to the gentleman from Florida, Mr. Mack.
    Mr. Mack. So half of the receipts to the government come 
from the oil that is sold here to the United States, is that 
what you said?
    Mr. Whitaker. Half of government receipts come from 
proceeds to PDVSA. Not all of PDVSA receipts come from the 
United States.
    Mr. Mack. Okay.
    Mr. Whitaker. The majority of exports by PDVSA go to the 
United States.
    Mr. Mack. Right. So I think what you are hearing from us is 
that we want to see some sanctions that affect the oil industry 
in Venezuela. And let's not make--it is not an industry, it is 
Chavez. Right now all of that oil, we are funding his ability 
to continue to sponsor terror. And, again, I think a lot of us 
are wondering--and this is, obviously, a bipartisan issue; 
everybody is talking about the same thing.
    Why aren't we putting these sanctions on PDVSA, especially 
when the State Department, the Secretary, with the signature of 
her pen, can allow the Keystone XL pipeline to move through, 
move forward, which then we wouldn't need to buy the oil from 
Venezuela. And if we don't buy the oil from Venezuela, he 
cannot continue to sponsor terror. So it seems pretty simple. 
Maybe you can explain it why it is not that simple.
    Mr. Delare. I would hesitate to ever tell a Congressman 
that it wasn't that simple, but it isn't.
    Mr. Mack. Go for it.
    Mr. Delare. Well, in fact, I fully appreciate your argument 
about alternate energy sources and, in fact, the oil sands 
project will probably take 10 years to come online.
    Mr. Mack. But we get that argument all the time.
    Mr. Delare. Of course.
    Mr. Mack. And isn't it true that there has been study after 
study already, all the time the study comes back in a positive 
way, but then the environmentalists whip it all up again? I 
mean, we are going to continue to buy this oil from Chavez when 
we can get it from our friends in Canada.
    Mr. Delare. That is very true, but we have to look at the 
market as it stands today. And we are in a very difficult 
economic patch, as you well know, sir, and----
    Mr. Mack. You can't look at the market in just today.
    Mr. Delare. Well, I will even look at it for the next 5 
years and say we have to make adjustments, but in the meantime 
we have to get that energy from somewhere.
    Mr. Chaffetz. I guess, as I wrap up here, I would just say 
there is a concerted effort to say we are okay with the 
terrorism as long as we keep the price of gas low down here. 
And that is the concern that I think a lot of us have. I think 
the administration is making a very concerted effort. We can 
give them half, three-quarters of their revenue to Hugo Chavez. 
It is okay, even though they are participating in terrorism, as 
long as we keep that price of gas down at 7-11.
    I now yield 5 minutes to the gentleman from Florida, Mr. 
Rivera.
    Mr. Rivera. Thank you very much.
    For Mr. Szubin, you are the Director of the Office of 
Foreign Assets Control, so you are in charge of regulating the 
Trading with the Enemies Act, is that correct?
    Mr. Szubin. Yes.
    Mr. Rivera. Cuba is regulated under that act.
    Mr. Szubin. Our sanctions against Cuba were issued pursuant 
to the Trading with the Enemy Act.
    Mr. Rivera. So Cuba is an enemy of the United States.
    Mr. Szubin. The title of the statute that Congress passed 
is the Trading with the Enemy Act, and that is our authority 
under which we use these sanctions.
    Mr. Rivera. So I would presume Cuba is considered an enemy 
of the United States.
    Mr. Szubin. That is not for me to characterize, but you are 
correct as to the title of the statute.
    Mr. Rivera. How many flights were there between Iran and 
Venezuela? I heard one flight a week that no longer exists, is 
that correct?
    Mr. Szubin. What Mr. Whitaker mentioned earlier is that 
there had been a period of one flight a week, and we believe 
that has now stopped.
    Mr. Rivera. How many flights are there between the United 
States and the other countries who are on the terrorist list, 
direct flights, North Korea, you said Sudan and Iran? How many 
direct flights a day?
    Mr. Szubin. I don't know, but I would be happy to look into 
that and get back to you.
    Mr. Rivera. Do you not regulate those? Trading with the 
Enemy Act, would that not fall under your purview?
    Mr. Benjamin. Sir, I can answer that.
    Mr. Rivera. Yes.
    Mr. Benjamin. There are none.
    Mr. Rivera. There are none. How many flights are there 
between the United States and our enemy, Cuba, a day?
    Mr. Benjamin. If you are talking about----
    Mr. Rivera. Direct flights.
    Mr. Szubin. Private charter flights?
    Mr. Rivera. Airplanes, airplanes that fly between the 
United States and Cuba daily.
    Mr. Szubin. I don't know the answer to that.
    Mr. Rivera. Do you not regulate?
    Mr. Szubin. Yes, we do, and I would be happy to get the 
answer for you, but I don't know it offhand.
    Mr. Rivera. You are the Director of OFAC.
    Mr. Szubin. Correct.
    Mr. Rivera. You regulate the Trading with the Enemies Act. 
Flights between the United States and Cuba, an enemy, are 
regulated by you.
    Mr. Szubin. Yes.
    Mr. Rivera. The only flights that exist, according to the 
enemies list, North Korea, Sudan, and Iran, is zero. Cuba is 
the only--you don't know how many flights?
    Mr. Szubin. That is right.
    Mr. Rivera. Okay. I would like for you to get me that 
information.
    Mr. Szubin. I would be happy to, Congressman.
    Mr. Rivera. And I would like to know not only how many 
flights, but who is chartering those flights, what companies 
own the airplanes that are chartering those flights. Are you 
familiar with that, who are chartering or what companies own 
the planes?
    Mr. Szubin. What I can tell you is that to operate a 
charter service with respect to Cuba, you need to be licensed 
by our office. So there is an elaborate process which travel 
service providers or charter service providers need to come in, 
they need to make all sorts of showings as to exactly the 
questions you are talking about, their ownership and----
    Mr. Rivera. So you should be intimately familiar with these 
flights.
    Mr. Szubin. If I had a better memory, I could recite the 
names of all these charter companies for you offhand, but that 
is not something----
    Mr. Rivera. Would you say the number is more than 10, less 
than 100, more than 1,000?
    Mr. Szubin. As I said, Congressman, I don't know the number 
of flights a day going to Cuba.
    Mr. Rivera. Mr. Whitaker, recently I understand that there 
was a summary that was produced of a phone conversation you had 
with the Charges d'Affaires of Venezuela, Angelo Rivero Santos. 
Are you familiar with this? Did you recently have a phone 
conversation?
    Mr. Whitaker. I have spoken to him on the phone. I am not 
aware of any transcript being published.
    Mr. Rivera. Well, I received information of it being 
published where you did a few things; you congratulated him on 
the excellent diplomatic work done on the Honduran crisis, you 
invited him to meet with Secretary of State of Venezuela, we 
assured him that Venezuela was well represented in the State 
Department and a desire to work together to improve relations. 
Does any of this sound familiar?
    Mr. Whitaker. It does not. That is not a conversation that 
I had, sir.
    Mr. Rivera. No conversation between you and----
    Mr. Whitaker. As I say, I have spoken with Charges 
d'Affaires Rivero on the phone.
    Mr. Rivera. Recently?
    Mr. Whitaker. I would have to go back and check, but that 
is not--what you just said is not a conversation that I----
    Mr. Rivera. What was the tenor of that conversation?
    Mr. Whitaker. Sir, I rarely speak with him. I did have a 
recent conversation; it was highly operational in nature, and I 
would be happy to discuss that with you. But the factors that 
you just mentioned----
    Mr. Rivera. Were not part of that conversation?
    Mr. Whitaker [continuing]. Were not part of that 
conversation and they are not things that I would say.
    Mr. Rivera. Thank you.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    If there are no further questions, we will thank the 
witnesses for appearing here today. I would just implore you 
again, in the future, and I would ask that the administration 
work with us in, A, providing witnesses in a timely manner and 
providing testimony, the written statements, 48 hours in 
advance so that we can do our jobs as well. I appreciate your 
patriotism, your commitment to our country, your sacrifice and 
your service to the country. I hope you find that it wasn't too 
painful to come before this committee, and perhaps we will have 
you here again, but we do appreciate your testimony here today.
    The committee will stand adjourned.
    [Whereupon, at 11:18 a.m., the subcommittees were 
adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 71297.017

[GRAPHIC] [TIFF OMITTED] 71297.018

[GRAPHIC] [TIFF OMITTED] 71297.019

[GRAPHIC] [TIFF OMITTED] 71297.020

[GRAPHIC] [TIFF OMITTED] 71297.039

[GRAPHIC] [TIFF OMITTED] 71297.040

[GRAPHIC] [TIFF OMITTED] 71297.041

[GRAPHIC] [TIFF OMITTED] 71297.042

[GRAPHIC] [TIFF OMITTED] 71297.043

[GRAPHIC] [TIFF OMITTED] 71297.044

[GRAPHIC] [TIFF OMITTED] 71297.045

[GRAPHIC] [TIFF OMITTED] 71297.046

[GRAPHIC] [TIFF OMITTED] 71297.047

[GRAPHIC] [TIFF OMITTED] 71297.048

[GRAPHIC] [TIFF OMITTED] 71297.049

[GRAPHIC] [TIFF OMITTED] 71297.050

[GRAPHIC] [TIFF OMITTED] 71297.051

[GRAPHIC] [TIFF OMITTED] 71297.052

[GRAPHIC] [TIFF OMITTED] 71297.053

[GRAPHIC] [TIFF OMITTED] 71297.054

[GRAPHIC] [TIFF OMITTED] 71297.055

[GRAPHIC] [TIFF OMITTED] 71297.056

                                 <all>

</pre></body></html>
